HHS/OIG-Audit--"Financial Audit of the National Institutes of Health's Management and Service and Supply Funds, (A-15-93-00008)"
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Financial Audit of the National Institutes of Health's Management and
Service and Supply Funds," (A-15-93-00008)
June 20, 1993
Complete Text of Report is available in PDF format
(7.25 mb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final audit report, prepared by Price Waterhouse (PW), certified public
accountants, presents the results of their audit of the National Institutes
of Health's Management and Service and Supply Funds financial statements for
the Fiscal Year ended September 30, 1992. The PW auditors found significant
internal control weaknesses, and noncompliance with the Department of Health
and Human Services' accounting manual that had not yet been corrected from the
prior year's audit. The most significant problems are in the areas of inventory
management, property and equipment, and accounts payable. The areas of inventory
management and property and equipment were declared material weaknesses in its
December 1992 Federal Managers' Financial Integrity Act (FMFIA) report. We believe
that a material weakness in accounts payable meets the Office of Management
and Budgets criteria for a material internal control weakness that should be
reported to the President and Congress.